                                UNCLASSIFIED

           United States Department of State
         and the Broadcasting Board of Governors
                   Office of Inspector General




 Review of Administrative Operations of
Radio Free Europe/Radio Liberty Bureaus



Report Number IBO/A-02-05, September 2002




      This report has been reviewed pursuant to the Freedom of
      Information Act (5 USC 552) for public release.


                                    IMPORTANT NOTICE
This report is intended solely for the official use of the Department of State or the Broadcasting
Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department
of State or the Broadcasting Board of Governors, by them or by other agencies or organizations,
without prior authorization by the Inspector General. Public availability of the document will be
determined by the Inspector General under the U.S. Code 5 U.S.C. 552. Improper disclosure of this
report may result in criminal, civil, or administrative penalties.


                                UNCLASSIFIED
                            TABLE OF CONTENTS

                                                                                                                     PAGE
EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               1
     Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      1
     Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         1
     Results in Brief . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         2
     Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                3
PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             5
BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        7
FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
     Meeting the Requirements of Tax and Labor Laws . . . . . . . . . . . . . . . . . . . 9
     Inventory Management Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
APPENDICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
     A: Agency Comments
     B: List of RFE/RL Language Services, Related Bureaus,
        and Status of Tax Compliance as of May 17, 2002
     C: Geographical Listing of RFE/RL Bureaus
     D: Registration and Tax Compliance Update for RFE/RL Bureaus
        Reviewed by OIG as of March 2002
                                            UNCLASSIFIED




                         EXECUTIVE SUMMARY



PURPOSE
The Office of Inspector General’s primary objective in conducting its review of
Radio Free Europe/Radio Liberty (RFE/RL) bureau1 administrative operations was
to determine if RFE/RL is complying with current host countries’ laws regulating
employment tax and social contributions for bureau staff. A second objective was
to determine whether administrative controls for procurement, cash, and inventory
management were in place at the news bureaus.

    RFE/RL, a private nonprofit corporation funded by a grant from the Broadcast-
ing Board of Governors (BBG), broadcasts to countries where freedom of the
airways is not yet assured. RFE/RL broadcasts are often the only independent
radio programming available in these countries. Because of their independence,
bureau staff may be harassed by local government tax authorities. There is always
a possibility that a bureau may be shut down or threatened with closure as retribu-
tion. This environment places a great responsibility on RFE/RL to ensure that its
news bureaus are meeting host country laws.



BACKGROUND
The International Broadcasting Act of 1994 (P.L. 103-236) revised operational
guidelines for RFE/RL, reducing its annual budget by 67 percent to a ceiling of
$75 million. To meet the new ceiling, RFE/RL reduced staff and operating costs
and moved broadcasting operations from Munich, Germany, to Prague, Czech
Republic. The act also created the BBG to oversee all nonmilitary U.S. government
international radio and television broadcasting, including RFE/RL, the Office of
Cuba Broadcasting, Radio Free Asia, Voice of America, and WORLDNET televi-
sion.
1
 An RFE/RL bureau is an entity established by RFE/RL in a host country that covers regional news and
events to be broadcast by the language service in Prague or, in some cases, live from the bureau. RFE/
RL's broadcasts concentrate on providing local and regional news to countries where the media are strug-
gling amid chaotic economic conditions and, in many cases, intimidation, censorship, and tight govern-
ment control
OIG Report No.IBO/A-02-05, Review of Administrative Operations of Radio Free Europe/Radio Liberty Bureaus, September 2002   1 .

                                            UNCLASSIFIED
                                           UNCLASSIFIED



            RFE/RL broadcasts over 1,000 hours a week. Broadcasting for a country may
       be live from some of the 30 news bureaus or from the language services located in
       Prague. The broadcasts provide local news, in the language of the host country, on
       shortwave and also on AM and FM frequencies using more than 130 affiliate
       stations. Internet page views are also high.2 For example, the Russian service web
       site averages over a million page views a month.

           Broadcasting requires journalists as well as technical and administrative staff.
       Local bureaus are staffed with an administrator and, in a few cases, an accountant,
       who manages payroll, rent, utilities, and service payments in the host country. The
       administrative division in Prague includes a department of bureau administration to
       oversee and coordinate all non-journalistic matters, including meeting local registra-
       tion, employment, and tax laws. The finance division in Washington controls
       financial resources. Ensuring that bureaus have met local registration, employment,
       and tax laws has been termed by RFE/RL “bureau regularization.”



       RESULTS IN BRIEF
       Meeting the Requirements of Tax and Labor
       Laws

       In 1998, RFE/RL established a department of bureau administration3 to supervise
       and coordinate all non-journalist matters in the bureaus, including ensuring compli-
       ance with registration, employment, tax, and social contribution laws. The results
       have been laudable against tough odds. At present, RFE/RL reports paying staff
       according to host country labor laws in 21 of the 30 bureaus.4 Three bureaus are
       in the process of being regularized, and six bureaus are on hold because of the
       political and economic conditions of these countries. OIG visited four bureaus5
       and verified that they were meeting host country registration, employment, and tax
       laws.

          Country laws may change, requiring RFE/RL to update contracts and payroll
       payments. In Eastern Europe, South Asia, and Central Asia, laws change often,
       2
         A “page view” is a request to load a single web page and has come to be accepted as a more reliable
       method of measuring visitors to a site. A page “hit” is not a valid measure because it not only counts
       visitors to the specific site, but also counts visitors to other sites that have a link to the original site.
       3
           The department of bureau administration is part of RFE/RL's organization structure.
       4
           See Appendix B for a complete list of the bureaus and their status.
       5
           The four bureaus were Sarajevo, Bosnia; Moscow, Russia; Kiev, Ukraine; and Sofia, Bulgaria.

2 .   OIG Report No.IBO/A-02-05, Review of Administrative Operations of Radio Free Europe/Radio Liberty Bureaus, September 2002


                                           UNCLASSIFIED
                                            UNCLASSIFIED



and in some countries, such as Afghanistan, laws are not yet established. As a
result, employment contracts for bureau staff may have to be prepared annually.
The two primary staff positions supporting bureau regularization have been con-
tractors based in Prague who do not receive benefits comparable to those of
permanent regular employees. Turnover has been high, and lack of trained staff
results in bureau delays in meeting host country tax and labor laws. Not meeting
the laws may subject staff to intimidation by local government tax authorities. To
reduce turnover, OIG recommended that RFE/RL change the positions of staff
working on compliance to permanent, regular employees entitled to full benefits.

Administrative Controls

    Overall, OIG found that administrative controls met the requirements for
federal grantees. However, there were two areas where RFE/RL could make
changes. One was in managing the bureau operational budgets, and the second was
in the disposal of obsolete equipment.

    In reviewing the operational budgets in the bureaus, OIG observed a decision-
making process that was bogged down by multiple levels of approval for simple
items. Personnel, both managers and line staff, were frustrated because they did not
know how decisions involving resource allocation were made, nor were they
involved in the process. Beginning in February 2002, RFE/RL took significant
steps to integrate program managers and line staff with resource management.
Management conferences were held in February 2002 and June 2002. A resource
committee was created to review staffing categories and associated benefits. The
budget process was also discussed with end users. OIG had no recommendations
on resource allocation for the bureaus.

     RFE/RL revised its inventory management policy as of March 2002 to include
instructions for the bureaus. However, OIG found that obsolete equipment occu-
pied space in the bureaus’ newsrooms and sometimes required the rental of addi-
tional storage space. A recommendation was made for RFE/RL to request author-
ity from BBG to dispose of this equipment.

Agency Comments

    OIG provided a draft of this report to RFE/RL through the Broadcasting
Board of Governors for review and comment. RFE/RL agreed with the report and
will take action, as necessary, to comply with the two recommendations. Com-
ments are summarized after each recommendation and are included in their entirety
as Appendix A of this report.

OIG Report No.IBO/A-02-05, Review of Administrative Operations of Radio Free Europe/Radio Liberty Bureaus, September 2002   3 .

                                            UNCLASSIFIED
                                           UNCLASSIFIED




4 .   OIG Report No.IBO/A-02-05, Review of Administrative Operations of Radio Free Europe/Radio Liberty Bureaus, September 2002


                                           UNCLASSIFIED
                                            UNCLASSIFIED




                          PURPOSE AND SCOPE

The primary objective of the OIG review of bureau administrative operations at
RFE/RL was to determine whether bureaus complied with host country laws. The
tax compliance issue is a followup to a 1998 audit of the Moscow bureau, which
faulted RFE/RL for not complying with country laws. A second objective was to
determine whether administrative controls for procurement, cash, and inventory
management were in place at the news bureaus. OIG limited its evaluation site
work to bureaus reported by RFE/RL as currently meeting host country laws.

    To conduct this review, OIG visited four bureaus: Sarajevo, Bosnia; Moscow,
Russia; Kiev, Ukraine; and Sofia, Bulgaria. At each bureau, OIG interviewed
senior staff, including the language service director, bureau chief, administrative
staff, and correspondents. Locally hired translators were used in many of the
interviews. OIG performed a limited physical inventory at the bureaus and re-
viewed a sample of service contracts for each bureau. No review was conducted
of major contracts or service contracts as none are managed or signed by bureaus.
OIG did examine documentation of local purchases and cash payouts, but has no
comments.

    OIG tested and reviewed whether each bureau visited was complying with tax
and labor laws. The U.S. embassy in each country was contacted to verify current
tax and labor laws, as well as other relevant legal requirements. Independent
consultants6 based in each country were interviewed to confirm local law. The
review included verifying actual payments for selected correspondents.

    OIG’s Office of International Broadcasting Oversight conducted this review in
accordance with generally accepted government auditing standards. The field work
began at RFE/RL headquarters in Prague and ended in Prague to finalize issues
and brief staff. RFE/RL staff in Washington and selected offices in BBG and the
Office of Management and Budget (OMB) were interviewed. Field work was
conducted in February and March 2002. Contributors to the report were Louis A.
McCall, Director, Office of International Broadcasting Oversight; Katherine M.
Schultz, audit manager; James M. Berry -Schneck, senior auditor; and Amy J.
Rofman, management analyst.
6
 The independent consultants were usually firms such as PricewaterhouseCoopers, Deloitte&Touche, or
Arthur Andersen.


OIG Report No.IBO/A-02-05, Review of Administrative Operations of Radio Free Europe/Radio Liberty Bureaus, September 2002   5 .

                                            UNCLASSIFIED
                                           UNCLASSIFIED




6 .   OIG Report No.IBO/A-02-05, Review of Administrative Operations of Radio Free Europe/Radio Liberty Bureaus, September 2002


                                           UNCLASSIFIED
                                            UNCLASSIFIED




                                     BACKGROUND

RFE/RL is a private, nonprofit corporation that operates as a grantee under the
auspices of BBG. The RFE/RL broadcast center located in Prague oversees 30
news bureaus7 in support of its 23 language services. A key element in carrying
out RFE/RL’s role as a surrogate broadcaster is the operation of local bureaus
inside the broadcast countries. Surrogate broadcasting focuses on local/host
country news because domestic stations may not be objective or balanced. The
establishment of these bureaus began shortly after the Berlin Wall fell in 1989.
Today RFE/RL broadcasts to the New Independent States and to countries in the
Baltics, Persian Gulf and South Asia. RFE/RL’s requested budget for FY 2003 is
$73.1 million, with an additional $5.4 million for broadcasting to Afghanistan.
RFE/RL’s FY 2001 operating budget for its bureaus was over $8 million.

    The language service directors are responsible for programming and broadcast
production. In 1998, the department of bureau administration was established to
oversee the administrative aspects of the regional bureaus; however, journalistic
operations remain the responsibility of the language service directors. A bureau
normally consists of a bureau chief, administrator, staff journalists, freelance
correspondents, technicians, and for the larger bureaus, a full-time bookkeeper.

   Rules and regulations regarding income taxes and social fund contributions for
some countries regularly change. They are often not enforced by host countries
because their governments lack enforcement mechanisms and viable legal systems.
OIG found potential liabilities when local bureaus did not follow host country
employment and tax practices. In 1998, in part on the basis of an OIG audit,8
RFE/RL began to require bureaus to meet host country laws. RFE/RL calls this
process of meeting host country laws, “bureau regularization.”

    The process of meeting and continuing to satisfy host country laws is complex.
RFE/RL is required to register in each host country and to hire and pay staff
according to local employment and tax laws. In general, bureau regularization
includes researching legal requirements; registering a bureau as an official entity
with the local authorities; identifying reporting and tax filing requirements; imple-
menting appropriate contractual arrangements with staff; and ensuring accurate
7
    Appendix C is a geographical map of buraus.
8
    Memorandum Report 98-IB-005 (Jan. 1998).


OIG Report No.IBO/A-02-05, Review of Administrative Operations of Radio Free Europe/Radio Liberty Bureaus, September 2002   7 .

                                            UNCLASSIFIED
                                           UNCLASSIFIED



       withholding for local income tax and social contributions paid by RFE/RL to host
       governments.

           The amount of taxes paid is normally based on the labor category assigned to
       the staff member, and the rate of pay is fixed with a written contract, usually for
       one year. There are different requirements for tax and social funds payments owed
       to the host government, depending upon the status of employment. The bureaus
       withhold income tax and make social contributions for some categories of staff; in
       other categories, tax payments are the responsibility of the employee. In many
       cases, people under contract as freelancers are responsible for paying their own
       taxes. Permanent employees hired under the labor code have taxes withheld by the
       bureaus. The bureau makes contributions to the host government social funds for
       the staff members as well as for RFE/RL. Staffs are paid either a fixed salary, per
       minute of broadcasting program, or per contribution.




8 .   OIG Report No.IBO/A-02-05, Review of Administrative Operations of Radio Free Europe/Radio Liberty Bureaus, September 2002


                                           UNCLASSIFIED
                                            UNCLASSIFIED




                                            FINDINGS



MEETING THE REQUIREMENTS OF TAX AND LABOR LAWS
At present, RFE/RL reports that 21 of 30 bureaus are paying employee host
country taxes and social fund contributions; another three are developing the
process to do so; and six bureaus are on hold, either because laws are not estab-
lished or the political and economic situation is not favorable to broadcasting in
those countries.9

    To maintain compliance with host country laws requires updating contracts as
legislation changes. In these countries, legislation changes almost annually with
respect to tax and employment laws. Of the four bureaus OIG visited, all had a tax
change in the last year.10 Bureau accountants and administrators stay up-to-date on
changes in their particular country’s tax and employment laws, often using govern-
ment and commercial computer programs that inform businesses of new legal
requirements. The bureau administration department in Prague also receives
updates on changes in the law from tax and legal consultants. In Bosnia, the
Sarajevo bureau has a direct computer link to the ministry of finance to pay em-
ployee taxes. In Kiev, the bureau administrator referred to the Ukrainian legal code
as her Bible. The Kiev bureau has passed three tax reviews forward to Ukrainian
authorities in the past 18 months, with no findings of violations.

    Bureau staff view noncompliance with tax laws as a potential avenue for the
government to intimidate staff and, thereby, censor broadcasts. Individual tax
payments may be closely reviewed for irregularities. RFE/RL’s noncompliance or
errors with tax and labor laws may negatively affect its right to operate a bureau. In
Moscow, a consulting firm provides payroll service, including tax payments to the
government. The bureau believes that when an independent firm pays the taxes,
the tax authorities may be more assured that payments are correct. Bureau manage-
ment does not want to provide the government with an administrative excuse to
obstruct RFE/RL operations in Russia. By way of comparison, in Ukraine, foreign
national employees at the U.S. embassy insisted that the embassy withhold and pay
9
     Appendix B lists the 30 bureaus and the compliance status of each.
10
     Appendix D summarizes the tax compliance requirements for the four bureaus reviewed by OIG.


OIG Report No.IBO/A-02-05, Review of Administrative Operations of Radio Free Europe/Radio Liberty Bureaus, September 2002   9 .

                                            UNCLASSIFIED
                                            UNCLASSIFIED



        their income taxes because they were concerned about the possibility of being
        asked by local tax authorities to pay those taxes in the future. At all four bureaus
        visited by OIG, employees were aware that local tax authorities could demand
        payment due to non-payment of taxes or be overly diligent in checking the legali-
        ties of any action by the employee, including work history. Correspondents trusted
        bureau administrative staff to ensure that legal requirements were met.

            The department of bureau administration in Prague includes two contract
        employees who identify the least costly options for complying with local tax and
        labor laws as well as prepare the required paperwork to meet host government laws.
        The positions require close coordination with local legal and accounting consult-
        ants, the bureaus, language service directors, and the finance and administrative
        divisions. Contract employees, rather than permanent staff, were used because
        meeting host country tax and labor laws was to be a one-time action. All bureaus
        were to be completed within a couple of years, at which time the contract employ-
        ees would be released. The cost of providing benefits to staff was reportedly not
        an issue. RFE/RL management, supported by BBG, is committed to meeting the
        requirements of host country tax laws.

            Turnover in the specialized positions has been high, with a loss of continuity
        and experienced staff. Since 1998, three trained employees have resigned, the last
        one specifically because of frustration over perceived inequities in employee
        benefits. Time is spent training new contract employees. This repeated training
        time could be spent working to maintain bureau alignment with host country tax
        laws. To retain competent, experienced personnel, RFE/RL needs to convert
        contract staff in bureau administration to permanent positions with full benefits.


             Recommendation 1: The Broadcasting Board of Governors should ensure
             that Radio Free Europe/Radio Liberty converts the two contractor positions
             that prepare the requirements for bureaus to meet tax and labor law to perma-
             nent, regular staff with full employee benefits. (Action: Broadcasting Board
             of Governors)


            RFE/RL plans to address the need for additional support positions through the
        FY 2004 budget process, stating present resources are not sufficient to convert the
        two positions. Because of the potential liability for non-compliance, OIG encour-
        ages RFE/RL to manage resources and convert the two positions as soon as
        possible.




10 .   OIG Report No.IBO/A-02-05, Review of Administrative Operations of Radio Free Europe/Radio Liberty Bureaus, September 2002


                                            UNCLASSIFIED
                                            UNCLASSIFIED



Inventory Management Controls

RFE/RL’s inventory management process, administered centrally in Prague, does
not result in the timely disposition of obsolete equipment. During its review of the
inventory at the bureaus, OIG found that bureau staffs were confused about how
to handle obsolete equipment. Staff believed current disposal rules made it impos-
sible to donate obsolete equipment to local charities or schools. RFE/RL told OIG
that its disposal rules date back to a directive by the Board for International Broad-
casting, which was dissolved in 1995 when BBG was established. OMB Circular
A-110, Section 32: Uniform Requirements for Grants, states, “when real property
is no longer needed…, the recipient shall request disposition instructions from the
federal awarding agency or its successor federal awarding agency….” Officials at
RFE/RL told OIG that it has not asked BBG, the awarding agency, for updated
disposition instructions.

     During its physical inventory at the bureaus OIG found outdated equipment
sitting in hallways, on top of cabinets, and in storage facilities. The Moscow bureau
spent almost $10,000 dollars to rent two warehouses to store obsolete equipment
during 1999 and 2000. Timely disposition might have avoided these storage costs.


    Recommendation 2: The Broadcasting Board of Governors should ensure
    that Radio Free Europe/Radio Liberty disposes of obsolete equipment in ac-
    cordance with Office of Management and Budget Circular A-110. (Action:
    Broadcasting Board of Governors)


     The Broadcasting Board of Governors has requested that, whenever feasible,
all BBG broadcasting entities, not only RFE/RL, should donate equipment deemed
obsolete to affiliate radio stations or other institutions in the broadcast regions.




OIG Report No.IBO/A-02-05, Review of Administrative Operations of Radio Free Europe/Radio Liberty Bureaus, September 2002   11 .

                                            UNCLASSIFIED
                                            UNCLASSIFIED




12 .   OIG Report No.IBO/A-02-05, Review of Administrative Operations of Radio Free Europe/Radio Liberty Bureaus, September 2002


                                            UNCLASSIFIED
                                            UNCLASSIFIED




                 LIST OF RECOMMENDATIONS

Recommendation 1: The Broadcasting Board of Governors should ensure that Ra-
  dio Free Europe/Radio Liberty converts the two contractor positions that pre-
  pare the requirements for bureaus to meet tax and labor law to permanent, regu-
  lar staff with full employee benefits. (Action: Broadcasting Board of Gover-
  nors)

Recommendation 2: The Broadcasting Board of Governors should ensure that Ra-
  dio Free Europe/Radio Liberty disposes of obsolete equipment in accordance
  with Office of Management and Budget Circular A-110. (Action: Broadcasting
  Board of Governors)




OIG Report No.IBO/A-02-05, Review of Administrative Operations of Radio Free Europe/Radio Liberty Bureaus, September 2002   13 .

                                            UNCLASSIFIED
                                            UNCLASSIFIED




14 .   OIG Report No.IBO/A-02-05, Review of Administrative Operations of Radio Free Europe/Radio Liberty Bureaus, September 2002


                                            UNCLASSIFIED
                                            UNCLASSIFIED




                     LIST OF ABBREVIATIONS


BBG                                Broadcasting Board of Governors
OIG                                Office of Inspector General
OMB                                Office of Management and Budget
RFE/RL                             Radio Free Europe/Radio Liberty




OIG Report No.IBO/A-02-05, Review of Administrative Operations of Radio Free Europe/Radio Liberty Bureaus, September 2002   15 .

                                            UNCLASSIFIED
                                            UNCLASSIFIED




16 .   OIG Report No.IBO/A-02-05, Review of Administrative Operations of Radio Free Europe/Radio Liberty Bureaus, September 2002


                                            UNCLASSIFIED
                                            UNCLASSIFIED

                                                                                                    APPENDIX A




OIG Report No.IBO/A-02-05, Review of Administrative Operations of Radio Free Europe/Radio Liberty Bureaus, September 2002   17 .

                                            UNCLASSIFIED
                                            UNCLASSIFIED




18 .   OIG Report No.IBO/A-02-05, Review of Administrative Operations of Radio Free Europe/Radio Liberty Bureaus, September 2002


                                            UNCLASSIFIED
                                            UNCLASSIFIED




OIG Report No.IBO/A-02-05, Review of Administrative Operations of Radio Free Europe/Radio Liberty Bureaus, September 2002   19 .

                                            UNCLASSIFIED
                                            UNCLASSIFIED




20 .   OIG Report No.IBO/A-02-05, Review of Administrative Operations of Radio Free Europe/Radio Liberty Bureaus, September 2002


                                            UNCLASSIFIED
                                            UNCLASSIFIED
                                                                                                    Appendix B
                   List of RFE/RL Language Services, Related Bureaus,
                     and Status of Tax Compliance as of May 17, 2002

         Bureau Location(s)                       Language Service                          Compliance Statusa

1       Kabul                                   Afghani (Dari and Pashto)                   No
2       Belgrade, Yugoslavia                    South Slavic and Albanianb                  In process
3       Podgorica, Montenegro                                                               In process
4       Sarajevo, Bosnia                                                                    Yes
5       Banja Luka, Bosnia                                                                  Yes
6       Skopje, Macedonia                                                                   No
7       Pristina, Kosovo                                                                    No
8       Zagreb, Croatia                                                                     In process
9       Yerevan                                 Armenian                                    Yes
10      Baku                                    Azerbaijani                                 No
11      Minsk                                   Belarusian                                  No
12      Sofia                                   Bulgarian                                   Yes
        No bureau                               Czech                                       N/Ac
13      Tallinn                                 Estonian                                    Yes
14      Tbilisi                                 Georgian                                    Yes
15      Almaty                                  Kazakh                                      Yes
16      Astana                                                                              Yes
17      Bishkek                                 Kyrgyz                                      Yes
18      Riga                                    Latvian                                     Yes
19      Vilnius                                 Lithuanian                                  Yes
        No bureau                               North Caucuses                              N/Ad
20      London                                  Persian Service (Farsi)                     Yes
                                                Radio Free Iraq (Arabic)                    Yes
21      Bucharest                               Romanian/ Moldavian                         Yes
22      Chisinau                                                                            Yes
23      Moscow                                  Russian                                     Yes
24      Ekaterinaburg                                                                       Yes
25      St. Petersburg                                                                      Yes
26      Bratislava                              Slovak                                      Yes
27      Dushanbe                                Tajik                                       No
28      Kazan                                   Tatar-Bashkir                               Yes
        No bureau                               Turkmen                                     N/Ae
29      Kiev                                    Ukrainian                                   Yes
30      Tashkent                                Uzbek                                       Yes

a
  The listed status is according to RFE/RL officials.
b
  Includes Albanian, Bosnian, Croatian, Macedonian, and Serbian.
c
  RFE/RL currently broadcasts from the headquarters in Prague.
d
  New service, yet to establish a bureau.
e
  No bureau because of country restrictions.




OIG Report No.IBO/A-02-05, Review of Administrative Operations of Radio Free Europe/Radio Liberty Bureaus, September 2002   21 .

                                            UNCLASSIFIED
                                            UNCLASSIFIED



                                                                                                          APPENDIX C



                                   Geographical Listing of RFE/RL Bureaus




              Legend
                                            RFE/RL Bureau

                                             Site Visited

                                            RFE/RL Headquarters




22 .   OIG Report No.IBO/A-02-05, Review of Administrative Operations of Radio Free Europe/Radio Liberty Bureaus, September 2002


                                            UNCLASSIFIED
                                            UNCLASSIFIED



                                                                                                                      Appendix D



                    Registration and Tax Compliance Update for RFE/RL Bureaus

                                        Reviewed by OIG as of March 2002



Status                                Sarajevo                   Moscow                Kiev                   Sofia
OIG visits in 2002                    February 24-27             March 1-12            March 14-17            March 20-25


Registered with host                  July 2001                  August 1991a          October 1999           October 1999
government


Contracts completed                   February 2002              July 1998             April 2001             November 1999
Income tax on gross income            Employees: 5%;             13%                   Full time:             Progressive
    withheld from staff               freelancers: 10%-                                progressive            scale from
                                      18%, depending                                   scale up to            18% to 29%
                                      on locality                                      40%; free-
                                                                                       lancers: 20%


Social taxes on gross                 Full time: 47.059%         Unified social        37.94% (with           32.2% (pension,
income paid by employer               Freelancers: no            tax at                a $115 cap)            accident, health
                                                  b
                                      liability                  regressive                                   insurance, and
                                                                 rates from                                   unemployment
                                                                 35% to 5%                                    fund; exact rates
                                                                                                              differ by age)


Social taxes on gross                 None                       None                  Employees:             Employees: 10.5%
    income paid by staffer                                                             3% Civil
                                                                                       contractors:
                                                                                       2%


Last tax code change                  February 2002              January 2002          February 2002          January 2002


Independent verification              Review planned             Yes                   Yes                    Yes
    (yes/no)



a
    Presidential decree.
b
    In Bosnia, taxes are calculated on the net salary.



OIG Report No.IBO/A-02-05, Review of Administrative Operations of Radio Free Europe/Radio Liberty Bureaus, September 2002         23 .

                                            UNCLASSIFIED
                                            UNCLASSIFIED




24 .   OIG Report No.IBO/A-02-05, Review of Administrative Operations of Radio Free Europe/Radio Liberty Bureaus, September 2002


                                            UNCLASSIFIED
UNCLASSIFIED




UNCLASSIFIED
